2oNo.

in tfje Supreme Court of tfje SimtetJ States
Sheri Speer, PETITIONER V.

Seaport Capital Partners,
LLC, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARf%\ F1TP
FROM THE SECOND CIRCUIT OF APPEALS
' ‘ M *

:lfl
)

I
I li 1 1

ft

Petition for Writ of Certiorari

^ FILED
«*#

Sheri Speer, pro se
151 Talman Street
Norwich, CT 06360
(860) 213-2836
speercommercial@gmail.com

RECEIVED
JUL - 6 2020

o

QUESTIONS PRESENTED
Involuntary bankruptcies are rare - as they should be.
They are a last resort after all state remedies have been
exhausted, and are not a tool to be used in order to solve
two party disputes.
The questions presented are as follows:
A. Is the Second Circuit's decision in conflict
with In re: Matthew N. Murray (Wilk
Auslender LLP v Murray) 900 F.3d 53 (2d Cir.
2018), Popular Auto, Inc. v. Reyes-Colon (In
re Reyes-Colon), Nos. 17-1971, 17-1972, 2019
WL 1785039 (1st Cir. April 24, 2019) and this
Court's holdings in Law v. Siegel, 571 U.S.
415, 421(2014)?
B. Did the Bankruptcy Court violate the
Colorado River and other Abstention
Doctrines?
C. Did the Bankruptcy Court lack subject matter
jurisdiction to grant the involuntary petition?
D. Did the Second Circuit condone a profound
abuse of the involuntary bankruptcy process?

(I)

PARTIES TO THE PROCEEDING
The Petitioner is Sheri Speer, who is proceeding pro se.
Respondents are Seaport Capital Partners, LLC,
United States Trustee Thomas Boscarino, Dr. Michael
Teiger, SLS Heating, LLC and Clipper Realty Trust

(II)

TABLE OF CONTENTS
Page
Opinions below......................................................................... 1
Jurisdiction.............................................................................. 1
Statutory provisions involved................................................. 2
Statement................................................................................. 2
Reasons for granting the petition............................................ 3
A. The panel decision conflicts with a decision of the United
States Supreme Court and Other Circuits........................ .3
B. The panel decision uphold clear violations of abstention
doctrines........................................................................... ,4
C.The Bankruptcy Court LackedSubjectMatter Jurisdiction.
.6
D.The Panel Decision Encourages a Profound Abuse of the
Bankruptcy Code Moving Forward............................
.6
Conclusion................................................................................ 7
Appendix A — Order Dismissing Appeal from Second Circuit
(Apr. 10, 2020)
la
Appendix B — Order Denying Reconsideration En Banc.... 2a
Appendix C — USCA Mandate.
,3a
Appendix D — USDC Order Affirming Bankruptcy Court....4a
Appendix E - Judgment of Bankruptcy Court Under Appeal....6a
Appendix F - Stipulated Judgment in Speer v Cohen.
11a
TABLE OF AUTHORITIES
Cases:
In re: Matthew N. Murray (Wilk Auslender LLP v Murray)
S'.,

900 F.3d 53 (2d Cir. 2018).

.passim

Popular Auto, Inc. v. Reyes-Colon (In re Reyes-Colon) 2019
WL 1785039 (1st Cir. April 24, 2019).

.passim

Law v. Siegel, 571 U.S. 415, 421(2014).

.passim

Colorado River Water Conservation District v. United States,
424 U.S. 800 (1976)

.passim
(HI)

IV
Statutes

Page

11 USC §303...
28 USC §1254.

.2,5
1

3n tf)e Supreme Court ot tfje Umteb ^>tatesf
No.
SHERI SPEER, PETITIONER
v.
SEAPORT CAPITAL PARTNERS, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
FROM THE UNITED STATES SECOND CIRCUIT OF
APPEALS

PETITION FOR A WRIT OF CERTIORARI

Sheri Speer, pro se, respectfully petitions for a writ
of certiorari
to
review the judgment of the
United States Court for the Second Circuit of Appeals
dismissing her appeal of the District Court's judgment
affirming the ruling of the Bankruptcy Court's denial of
the motion to dismiss her involuntary bankruptcy case.
OPINIONS BELOW
The opinion of the Second Circuit of Appeals
entered in docket number 20-255 on April 10, 2020, and
reconsideration en banc was denied May 27, 2020 with the
mandate issuing June 3, 2020. It dismissed on the grounds
that the ruling under appeal was interlocutory, and
overlooked its role in the supervision of the
administration of justice.
JURISDICTION
The judgment of the Circuit Court entered April
10, 2020, and reconsideration en banc tolled the time in
which to seek certiorari from this Court to begin June 3,
2020, making this petition timely. The jurisdiction of this
Court is invoked under 28 U.S.C. 1254, to review the
Second Circuit of Appeals' decision dismissing the
Petitioner's appeal.
(1)

2
STATUTORY PROVISIONS INVOLVED
This case involves, at its core, whether the
requirements of 11 USC §303 were ever met in the first
place, which requires three valid petitioning creditors in
order to place a debtor in an involuntary bankruptcy.
Facts discovered subsequent to the granting of the
involuntary petition answer that question in the negative.
STATEMENT
This case is profoundly unusual in that the Respondent
Seaport Capital Partners, LLC was allowed to concoct an
involuntary bankruptcy to prevent counterclaims of the
Petitioner against it from being heard in Connecticut
Superior Court - and then obtain favorable, preferential
treatment over that of other creditors. The result has defied
all standard norms of comity between Federal and State
Courts.
As the Petitioner later discovered, there were not three
petitioning creditors with no bona fide disputes as to their
debts. Seaport, though it has intervened (after paying for the
case to be brought by SLS Heating, LLC, Clipper Realty Trust
and Dr. Michael Teiger, was not allowed to prosecute (so
there was no fourth creditor, as the Bankruptcy Court
(Nevins, J) erroneously claimed. Dr. Michael Teiger's loan
was ruled illegal and unenforceable, nunc pro tunc by the
Hartford Superior Court. Clipper Realty Trust was found to
not even be an existing entity under Connecticut Law at any
time (per its Uniform Statutory Trust Act). This left SLS
Heating, LLC as the sole remaining creditor, meaning the
requirements of §303 were not met because the Debtor had
more than twelve (12) creditors.
It has not been in dispute in the years the involuntary
bankruptcy of Seaport's intentions to avoid state adjudication
of its claims and it as the sole, only and primary participant
in any of the bankruptcy proceedings, below.

3
REASONS FOR GRANTING THE PETITION
A.The Second Circuit's decision is in conflict with
In re: Matthew N. Murray (Wilk Auslender LLP v
Murray) 900 F.3d 53 (2d Cir. 2018), Popular Auto, Inc.
v. Reyes-Colon (In re Reyes-Colon), Nos. 17-1971,
17-1972, 2019 WL 1785039 (1st Cir. April 24, 2019) and
this Court's holdings in Lawv. Siegel, 571 U.S. 415,
421(2014).
Generally, these well reasoned decisions stand for
the long standing policy that bankruptcy courts do not
exist to decide two-party disputes, they are not collections
agencies and they are not to be used to interfere with State
Proceedings. There is no real factual dispute that In Re
Speer 14-21007 was commenced according to Seaport's
plan, with its funds and for its own interests primarily and
foremost at the direct expense of the other creditors - one
of whom did not actually exist as a legal entity. As was on
the record for the Second Circuit's consideration, the
Petitioner arrived at a stipulated judgment with one of
Seaport's co-conspirators, wherein he admitted to his role
and the improper purpose of the involuntary bankruptcy
(see Appendix F). As the case was in In Re Reyes-Colon,
such conspiracies must be outed and undone, even if that
just result takes many years occur (as it took 14 years, more
than double the time In Re Speer has been pending). While
the Second Circuit adopted the reasoning similar to there
that involuntary bankruptcies were not the proper vehicle
to resolve two-party disputes (and that state courts were),
it departed from that reasoning in In Re Matthew Murray
by dismissing the Petitioner's appeal and avoiding the
issue.

4
It cannot be said the Bankruptcy Court was acting
within the limits of its powers, as this Court specifically
forbids a it from doing as it held in Law v Seigel.
Specifically, it denied the Petitioner any real ability to
challenge its lack of subject matter jurisdiction due to a
sanctions order entered against her. The very process by
which that jurisdiction was invoked was through improper
purpose and abuse of the Bankruptcy Code. Rather than
address the wrong that had occurred, the Bankruptcy Court
simply misconstruction the original decision entering
involuntary relief, ignored the orders from the Hartford
Superior Court deeming the debt claimed by Dr. Teiger as
not in default and further ignoring the fact that Clipper
Realty Trust did not actually exist as a matter of law
because it had not appointed an agent or registered with the
Secretary of State in order to do legally do so. The record
transmitted upon granting of this petition Will make these
facts very apparent and clearly not in dispute.
B. The Bankruptcy Court Profoundly Violated
the Colorado River and other Abstention Doctrines
At the time of the involuntary petition, Seaport
Capital Partners, LLC was a counterclaim defendant in nine
actions styled Seaport Capital Partners, LLC v Speer KNLCV-12-6012072 through -080. Trial was set to commence
May 22, 2014, after Seaport abandoned the settlement it had
agreed to in open court on April 3, 2014 (transcript in
lower court record).

5
The end result was an improperly negotiated
settlement of all those claims with the United States Trustee,
and had the Petitioner prevailed in Superior Court on those,
the common facts would have also denied Seaport
foreclosures of the properties it was seeking. The scheduled
trial never happened as a result. Seaport did not like the way
the state court forum was going for it, so it changed to the
bankruptcy forum.
Colorado River and its progeny required six
considerations to be taken into account by the Bankruptcy
Court and those reviewing its decisions: (1) the assumption
of jurisdiction by either court over any res or property; (2)
the inconvenience of the federal forum; (3) the avoidance of
piecemeal litigation; (4) the order in which jurisdiction was
obtained; (5) whether state or federal law supplies the rule of
decision; and (6) whether the state court proceeding will
adequately protect the rights of the party seeking to invoke
federal jurisdiction. All six of those factors favored
abstention, and the third factor only resulted in piecemeal
litigation by Seaport in the federal forum, which it then
repeated and multiplied again in the State Forum.
As a result, the Bankruptcy Court's dodging of the
§303 lack of prerequisites for the initial exercise of its
jurisdiction led to forum shopping and piecemeal litigation the exact result Colorado River and its progeny were
designed to prevent. The disputes between the Petitioner and
the Respondent were unmistakably parallel and required
abstention.

6

C. The Bankruptcy Court lacked subject
matter jurisdiction to grant the involuntary petition
As to this, there is no question. Seaport was not
actually allowed to prosecute, so it was not a petitioning
creditor for the purposes of entering involuntary relief.
Clipper Realty Trust simply did not exist. Dr. Teiger's debt was
ruled not in default by Hartford Superior Court in an action
styled Commissioner of Banking v Stuart Cohen. That leaves
SLS Heating, LLC as the sole creditor. Holding with this
Court's opinion in Law v Siegel, that defect could not be cured.
The Bankruptcy Court simply had no power or authority to
proceed a step further.
D. The Second Circuit condoned a profound abuse of
the involuntary bankruptcy process
Finally, what the Second Circuit did amounted to a
profoundly dangerous public policy result - the officially
sanctioned use of involuntary bankruptcy proceedings to
resolve two party disputes without requiring anyone to
exhaust state court remedies or settle issues of state law in state
court - where they belong. The decision to dismiss the appeal
and not remedy the abstention and lack of subject matter
jurisdiction defects in the bankruptcy itself undid all of the
sound public policy objectives established, as referenced
herein.

7
CONCLUSION
The Second Circuit's decision and its conflict with
decisions of this Court, its own decision and those in the
First Circuit (and undoubtedly others) require this Court
to take the necessary step of granting certiorari on the
questions presented herein.

/s/ Sheri Speer
Dated this 25th day of June, 2020
Sheri Speer, Pro Se Petitioner
151 Talman Street
Norwich, CT 06360
(860)213-2836
speercommercial@gmail. com

